             u.s. Small Business Administration 
   Memorandum
             Office Inspector General 



    To: 	    Eric Zarnikow                                           Date:   December 15, 2009
             Associate Administrator for Capital Access
             /Isl Original Signed/
  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Lack of Approval for a Recovery Act Surety Bid Bond Guarantee
             ROM 10-09

             Attached is the Management Letter issued by KPMG LLP which identifies a
             matter that came to their attention during the audit of SBA's FY 2009 fmancial
             statements. The objective was to determine SBA's compliance with its
             guidance for approving loans funded under Section 508 - Surety Bond
             Guarantees of the Recovery Act.
             KPMG addressed recommendations to the Director for the Office of Surety
             Bond Guarantees. We provided a draft ofKPMG's report to this official or his
             designee, who concurred with the finding. The official or designee agreed to
             implement the recommendations or has already taken action to address the
             underlying conditions.

             Should you or your staff have any questions, please contact Jeffrey R. Brindle,
             Director, Information Technology and Financial Management Group at (202)
             205- [FOIA ex. 2]

             Cc: Jonathan 1. Carver
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036




                     AMERICAN RECOVERY AND REINVESTMENT ACT 

                               MANAGEMENT LETTER 




November 13,2009


CONFIDENTIAL

Office of the Inspector General,
U.S. Small Business Administration, and
Administrator ofthe SBA:


We were engaged by the Office of Inspector General (OIG) to perform supplemental audit services for the
purpose of testing certain transactions and system enhancements related to the U.S. Small Business
Administration's (SBA) implementation of the American Recovery and Reinvestment Act of 2009
(ARRA). The procedures were performed as part of an expanded scope of our fiscal year 2009 audit of
SBA's consolidated financial statements. In planning and perfonning our audit procedures related to
SBA's implementation of ARRA, we considered internal control aspects related to the implementation
and operation of the ARRA programs that were in p]ace as of September 3D, 2009. However, our audit
services under this contract modification did not include issuing an opinion on the effectiveness of the
controls, and accordingly, we do not express our opinion on such controls.

During our audit, we noted a matter involving internal control concerning lack of review of outstanding
Preferred Surety Bond (PSB) bid bonds. The comments and resulting recommendations, presented in the
Exhibit, have been discussed with the appropriate members of management and are intended to improve
internal control or result in other operating efficiencies.

We would be pleased to discuss these comments and resulting recommendations with you at any time.

This report is intended solely for the information and use of the DIG, SBA management, and others
within the organization and is not intended to be, and should not be, used by anyone other than these
specified parties.




                                  ' ,P~~i ~) L:.~ -.1 U.S. ;;~ I i t ~d ~ ; ...~~~I~:':i pit : ; r-.";'- i~; ; ii~_ 1:", t; ,:!; U ..;,-:;
                                   "; i "' ;r:·j,:..t" ~ i" ~i "; ; d¥.0t<! {; ~ ~ it~' n dci(',i~ ir. . ri :~ ":, f. :; .r.· ~H , i) ,~:- h~·" '"
                                                                                                 Exhibit
                           U.S. SMALL BUSINESS ADMINISTRATION 

                              American Recovery and Reinvestment Act 

                                  Management Letter Comments 

                                            FY 2009 



LACK OF REVIEW OF OUTSTANDING PREFFERED SURETY BOND (PSB) BID BONDS

CONDITION:
During our testwork over the American Recovery and Reinvestment Act Surety Bond Guaranty (SBG)
Program, we noted that one surety bid bond was erroneously approved and not canceled prior to our
testwork. This surety bid bond was approved by a preferred surety company on July 7, 2009 through the
Surety Bond Guaranty (SBG) System in the amount of $93,380. However, when KPMG requested the
supporting approval documentation from the surety company in mid-September, the surety company
replied by stating that the bid bond was recorded in error and should be canceled. The surety company
explained that the contractor did not complete SBA Form 994, Application for Surety Bond Assistance,
and ultimately did not bid on the job. We noted the bid bond was canceled in the SBG system on
September 28,2009, which was subsequent to the identification of the error.

CRITERIA:
Standard Operating Procedure 5045 2, The Surety Bond Guaranty Program, states:
       "What Information Must the Surety and/or Contractor Complete in a Standard Application
       Package?
       SBA Form 994, Application for Surety Bond Assistance: This one-page form provides basic
       information regarding the contractor/principal and the surety; gives a brief description of the
       contract and the work that the contractor must perform thereunder; evidences the contractor's
       request for SBG assistance; and contains various certifications attested to by the contractor's
       signature. This form must be submitted with each application for a final bond guarantee. It also
       includes the disclosure authorization required by Section 1104(a) of the Right to Financial
       Privacy Act (12 U.S.C. 3404), which authorizes the surety, etc., to release information to SBA."
Office of Management and Budget (OMB) Circular A-123, Management's Responsibility for Internal
Control, states:
       "Management is responsible for developing and maintaining effective internal control. Effective
       internal control provides assurance that significant weaknesses in the design or operation of
       internal control, that could adversely affect the agency's ability to meet its objectives, would be
       prevented or detected in a timely manner."

CAUSE:
Under the PSB Program, participating surety companies can issue, service, and monitor bonds
without SBA's prior approval. SBA does not have a process in place to ensure that aged outstanding
PSB bid bond approvals are valid transactions.

EFFECT:
Under the PSB Program, there is increased risk that invalid approvals will be made that are not in
compliance with SBA policies and procedures.
                                                                                                  Exhibit
                           u.s. SMALL BUSINESS ADMINISTRATION 

                               American Recovery and Reinvestment Act 

                                   Management Letter Comments 

                                             FY2009 



RECOMMENDATIONS:
We recommend the Associate Administrator for the Office of Capital Access ensure the Director of the
Office of Surety Bond Guaranties:
1) 	 Continues to monitor preferred sureties to ensure it maintains all required supporting documentation,
     including a SBA Form 994, to support all bid bond approvals.
2) 	 Develops and implements policies and procedures to monitor aged outstanding PSB bid bond
     approvals.

MANAGEMENT RESPONSE:
SBA management concurs with the finding and recommendations.




                                                                                                        2
